Report No. DODIG-2012-110                    July 2, 2012




     Better Oversight Needed for the National Guard's
              Weapons of Mass Destruction
                   Civil Support Teams
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (571) 372-7469.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (571) 372-7469, or by mail:

                      Department of Defense Office of Inspector General
                      Office of the Deputy Inspector General for Auditing
                      ATTN: Audit Suggestions/13F25-04
                      4800 Mark Center Drive
                      Alexandria, VA 22350-1500




Acronyms and Abbreviations
AAR                           After Action Report
CBRNE                         Chemical, Biological, Radiological, Nuclear, or High-Yield
                                 Explosives
JFHQ                          Joint Force Headquarters
NGB                           National Guard Bureau
NGB-J3/DO                     National Guard Bureau-J3, Domestic Operations
                                 Directorate
NGB JoCC                      National Guard Bureau Joint Coordination Center
SITREP                        Situation Report
WMD CST                       Weapons of Mass Destruction Civil Support Team
                  ----------------------- - - -




                                     INSPECTOR GENERAL
                                      DEPARTMENT OF DEFENSE 

                                      4800 MARK CENTER DRIVE 

                                   ALEXANDRIA, VIRGINIA 22350-1500 





                                                                                       July 2, 2012


MEMORANDUM FOR CHIEF, NATIONAL GUARD BUREAU
               ASSISTANT SECRETARY OF THE AIR FORCE (FINANCIAL
                 MANAGEMENT AND COMPTROLLER)
               AUDITOR GENERAL, DEPARTMENT OF ARMY

SUBJECT: 	 Better Oversight Needed for the National Guard's Weapons of Mass Destruction
           Civil Support Teams (Report No. DODIG-2012-11 0)

We are providing this report for review and comment. We determined that the four Weapons of
Mass Destruction Civil Support Teams (WMD CSTs) reviewed had plans in place to respond to
chemical, biological, radiological, nuclear, or high-yield explosives and natural or man-made
disasters. However, the National Guard Bureau did not have situational awareness of
WMD CSTs' ability to immediately respond to a release of chemical, biological, radiological,
nuclear, or high-yield explosives and natural or man-made disasters. We considered
management comments on a draft of this report when preparing the final report.

DoD Directive 7650.3 requires that recommendations be resolved promptly. The National Guard
Bureau comments on the recommendation did not state whether they agree or disagree with the
recommendation; however their planned actions were partially responsive to the intent of the
recommendation. The comments did not include specific actions to develop a written oversight
plan in coordination with personnel from each Joint Force Headquarters-State. Therefore, we
request that the Director, National Guard Bureau-13, Domestic Operations and Force
Development Directorate, provide comments to the final report by August 1, 2012.

If possible, send a portable document format (.pdf) file containing your comments to
audros@dodig.mil. Copies of the management comments must contain the actual signature of
the authorizing official. We are unable to send classified comments electronicall, you must send
them over the SECRET Internet Protocol Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604-8866 (DSN 664-8866).


                                              1              '(f
                                            (Uz~cJ;)LeUJ?/'
                                             Alice F. Carey
                                             Assistant Inspector General
                                             Readiness, Operations, and Support
Report No. DODIG-2012-110 (Project No. D2011-D000LA-0226.000)                       July 2, 2012


               Results in Brief: Better Oversight Needed for
               the National Guard’s Weapons of Mass
               Destruction Civil Support Teams
                                                       Regulation 500-3/Air National Guard
What We Did                                            Instruction 10-2503, “Weapons of Mass
We evaluated the planning and reporting of the         Destruction Civil Support Team Management.”
National Guard’s Weapons of Mass Destruction           As a result, the National Guard Bureau did not
Civil Support Teams (WMD CSTs) in response             have situational awareness of WMD CSTs’
to intentional or unintentional release of             ability to immediately respond to a release of
chemical, biological, radiological, nuclear, or        chemical, biological, radiological, nuclear, or
high-yield explosives and natural or man-made          high-yield explosives and natural or man-made
disasters.                                             disaster.

What We Found                                          What We Recommend
The four WMD CSTs reviewed had plans for               We recommend that the Director, National
each phase of operation (pre-operational,              Guard Bureau-J3, Domestic Operations and
operational, and post-operational) identified in       Force Development Directorate, develop a
the Army Field Manual 3-11.22, “Weapons of             written oversight plan in coordination with
Mass Destruction-Civil Support Team                    personnel from each Joint Force Headquarters-
Operations,” December 2007. Those plans                State that verifies compliance with mission
should improve the WMD CSTs’ ability to                reporting requirements and provides feedback to
prepare, prevent, protect, and respond to              WMD CST on omissions and errors.
incidents involving chemical, biological,
radiological, nuclear, or high-yield explosives        Management Comments and
and natural or man-made disasters.                     Our Response
                                                       The Director, National Guard Bureau-J3,
However, the four WMD CSTs reviewed did
                                                       Domestic Operations and Force Development
not fully meet the reporting requirements to
                                                       Directorate, agreed that there is room to
keep the National Guard Bureau aware of their
                                                       improve oversight of the WMD CST reporting
movements and operations. Specifically, the
                                                       process. However, the Director did not
WMD CSTs did not provide required
                                                       specifically state whether he agrees or disagrees
termination, situation and after action reports,
                                                       with the recommendations but has planned
and complete information for after action
                                                       actions that are partially responsive to the intent
reports. Also, the National Guard Bureau
                                                       of the recommendations. The Director did not
records showed that the WMD CSTs conducted
                                                       identify specific actions to develop a written
409 response, stand-by, and assist missions from
                                                       oversight plan in coordination with personnel
FY 2008 through FY 2011, while the teams’
                                                       from each Joint Force Headquarters-State. We
records showed a total of 640 missions for the
                                                       request that the Director, National Guard
same time period. This occurred because
                                                       Bureau-J3, Domestic Operations and Force
National Guard Bureau-J3, Domestic
                                                       Development Directorate, provide comments in
Operations Directorate personnel did not clarify
                                                       response to this report by August 1, 2012.
reporting expectations or adequately oversee
                                                       Please see the recommendation table on the
how the WMD CSTs implemented the reporting
                                                       back of this page.
requirements identified in the National Guard

                                                   i
Report No. DODIG-2012-110 (Project No. D2011-D000LA-0226.000)         July 2, 2012

Recommendations Table


        Management                    Recommendations     No Additional Comments
                                     Requiring Comment          Required
Director, National Guard         1, 2
Bureau-J3, Domestic Operations
and Force Development
Directorate



Please provide comments by August 1, 2012.




                                             ii
Table of Contents

Introduction	                                                                    1     


      Objective                                                                  1     

      Background                                                                 1     

      Key Players in the Weapons of Mass Destruction Civil Support Team

             Program                                                             1     

      Weapons of Mass Destruction Civil Support Team Program Guidance            2

      Review of Internal Controls                                                3


Finding A. Weapons of Mass Destruction Civil Support Teams Had Plans in 

Place to Respond to Disasters                                                    4


      Weapons of Mass Destruction Civil Support Teams Had Plans in Place 

           For Each Phase of Operation                                           4

      Management Comments on the Finding and Our Response                        6


Finding B. The National Guard’s Weapons of Mass Destruction Civil Support 

Teams Reviewed Need to Improve the Reporting on Missions                    7


      Weapons of Mass Destruction Civil Support Teams Did Not Fully Meet 

             Reporting Requirements                                              7

      National Guard Bureau-J3, Domestic Operations Directorate Needs to Improve 

             Oversight of Weapons of Mass Destruction Civil Support Teams’ 

             Reporting                                                          13 

      Conclusion                                                                13     

      Management Comments on the Finding and Our Response                       13 

      Recommendations, Management Comments, and Our Response                    14 

      Management Comments on the Report and Our Response                        14 


Appendices

      A. Scope and Methodology 	                                                16 

            Use of Computer-Processed Data                                      17 

            Prior Coverage                                                      17 

      B. Management Comments on Finding B and Our Response 	                    18
 

Management Comments

      National Guard Bureau 	                                                   22 

       
Introduction
Objective
Our objective was to evaluate the adequacy of the planning and reporting of the National
Guard’s Weapons of Mass Destruction Civil Support Teams (WMD CSTs) in response to
intentional or unintentional release of chemical, biological, radiological, nuclear, or high-yield
explosives (CBRNE) and natural or man-made disasters. See the appendix for a discussion of
our scope and methodology.

Background
On March 17, 1998, Secretary of Defense Cohen announced the creation of 10 Rapid
Assessment and Initial Detection units to enhance the DoD’s ability to respond to domestic
incidents involving weapons of mass destruction. The Rapid Assessment and Initial Detection
units were renamed to WMD CSTs, which emphasized their role in assisting civil authorities.
Additional WMD CSTs were added in various phases starting in July 2001. DoD added the
latest WMD CST in November 2010. At the time of the audit, there were 57 WMD CSTs, which
included at least one in each State,1 three territories (Guam, Puerto Rico, and the Virgin Islands),
and the District of Columbia. We reviewed four WMD CSTs in California, New York, and
Indiana.2

The WMD CST was the lead element of the National Guard’s immediate response force
capabilities as identified in the 2011 Army Posture Statement. In Public Law 109-364,
“FY 2007 National Defense Authorization Act,” October 17, 2006, Congress expanded the
operational incidents for which a WMD CST could be used to include intentional or
unintentional release of nuclear, biological, radiological, or toxic or poisonous chemical
materials, and natural or man-made disasters in the United States that result or could result in the
catastrophic loss of life or property.

In a March 9, 2004, news release, DoD reported that the WMD CST was able to deploy rapidly,
assist local first responders in determining the nature of an attack, provide medical and technical
advice, and prepare for the identification and arrival of follow-on State and Federal military
response assets. Each team was made up of 22 full-time National Guard members, and was
commanded by a lieutenant colonel, jointly staffed with Army and Air National Guard
personnel, and consists of six sections: command, operations, communications,
administration/logistics, medical, and survey.

Key Players in the WMD CST Program
The players in the WMD CST program include the National Guard Bureau-J3, Domestic
Operations Directorate (NGB-J3/DO), National Guard Bureau Joint Coordination Center


1
 California, Florida, and New York have two WMD CSTs. 

2
 We visited the 9th WMD CST, Los Alamitos, California; 95th WMD CST, Hayward, California; 2nd WMD CST, 

Scotia, New York; and 53rd WMD CST, Indianapolis, Indiana.



                                                    1

(NGB JoCC), 3 Joint Force Headquarters-State (JFHQ-State) and the WMD CST. The
NGB-J3/DO plans, programs, and oversees the National Guard’s WMD CST program and
facilitates communication between DoD and the National Guard of the States and territories.
The NGB JoCC coordinates requests from other Federal agencies for WMD CST support with
the appropriate JFHQ-State. The JFHQ-State coordinates requests for WMD CST support from
local and state agencies. The JFHQ-State also validates WMD CST mission requests and
forwards all required reports to the National Guard Bureau (NGB). The WMD CST, at the
direction of the Governor, supports civil authorities at a domestic CBRNE incident site by
identifying CBRNE agents/substances, assessing current and projected consequences, advising
on response measures, and assisting with requests for additional support.

WMD CST Program Guidance
The WMD CST program used National Guard Regulation 500-3/Air National Guard
Instruction 10-2503 (NGR 500-3/ANGI 10-2503), “Weapons of Mass Destruction Civil Support
Team Management,” January 2006; NGR 500-3/ANGI 10-2503, May 20114; and Army Field
Manual 3-11.22 (FM 3-11.22), “Weapons of Mass Destruction-Civil Support Team Operations,”
December 2007, in normal operations. The NGR 500-3/ANGI 10-2503 prescribes policies,
procedures, and roles and responsibilities governing the employment of the National Guard’s
WMD CSTs in support of the National Guard Homeland Security Mission. The regulation also
defines operational mission categories. Operational requests from local, State, and Federal
agencies may fall into one of following mission categories:
      Response - Anytime a WMD CST deploys in response to a validated support request.  
      Stand-by - Anytime a WMD CST deploys to provide expertise at an event where the
       WMD CST may be the only asset, or staged with other State assets, to conduct
       operations. This includes events identified by the State chain of command, protective
       details, incidents of national significance, or other special events.  
    	 Assist - Includes but is not restricted to contingency operations liaison, capabilities briefs,
       technical assistance, mission reconnaissance, mutual support on how to minimize
       vulnerability to a CBRNE incident or as part of a national, state or local WMD Command
       Post Exercise or Field Training Exercise where unit capabilities are planned and
       demonstrated in accordance with scenario changes. 

In addition, the NGR 500-3/ANGI 10-2503 outlines reporting requirements for before, during,
and after a WMD CST is deployed or participates in a mission. The regulation describes three
reports that the WMD CSTs should prepare and submit to the NGB JoCC, through the
JFHQ-State. These reports include the:
    	 Situation Report (SITREP) – WMD CST must provide SITREPs at specified times
       throughout the duration of the mission.  


3
  The entity, “National Guard Bureau Joint Coordination Center,” is referenced in the National Guard Regulation
500-3/Air National Guard Instruction 10-2503, May 2011, and the entity, “National Guard Bureau Joint Operations
Center,” is referenced in the National Guard Regulation 500-3/Air National Guard Instruction, January 2006.
4
  Most of the documentation that we reviewed was for missions that occurred before the May 2011 version of the
NGR 500-3/ANGI 10-2503. Therefore, we applied the January 2006 version of the NGR 500-3/ANGI 10-2503 to
missions before May 2011 and the May 2011 version to missions that occurred after May 2011.


                                                       2

   	 Termination Report – WMD CST must submit a termination report to the incident
      commander prior to leaving the incident site. The WMD CST must also include a copy
      of the termination report in the After Action Report (AAR).
   	 AAR – WMD CST must complete an AAR within 5 duty days after terminating a
      mission.
The FM 3-11.22 focuses on the organization, mission, command and control, and
operations of the WMD CSTs. The guidance addresses employment concepts,
planning considerations, capabilities, and the type of support that WMD CSTs can
provide during a response.

Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of internal
controls that provides reasonable assurance that programs are operating as intended and to
evaluate the effectiveness of the controls. We identified an internal control weakness for
NGB-J3/DO. NGB-J3/DO personnel did not coordinate with JFHQ-State personnel to verify
WMD CSTs compliance with mission reporting requirements and provide feedback to
WMD CSTs on report omissions and errors. We will provide a copy of the report to senior
officials responsible for internal controls at NGB-J3/DO and the NGB.




                                              3

Finding A. WMD CSTs Had Plans in Place to
Respond to Disasters
The four WMD CSTs had plans in place to respond to CBRNE and natural or man-made
disasters. Specifically, the WMD CSTs reviewed had plans for each phase of operation
(pre-operational, operational, and post-operational) identified in the FM 3-11.22. Those plans
should improve the WMD CSTs’ ability to prepare, prevent, protect, and respond to incidents
involving CBRNE and natural or man-made disasters.

WMD CSTs Had Plans in Place for Each Phase of Operation
The four WMD CSTs had pre-operational, operational, and post-operational plans in place. The
FM 3-11.22 and the NGR 500-3/ANGI 10-2503 identify different ways for meeting the planning
requirements. Therefore, the plans varied among the WMD CSTs. These plans included, but are
not limited to, yearly training guidance, standard operation procedures, and safety procedures.

Pre-Operational Phase Plans to Prepare WMD CSTs to Receive
Mission Orders
All four WMD CSTs had plans in place to prepare them to receive and execute mission orders
for the pre-operational phase.5 Although the
NGR 500-3/ANGI 10-2503, January 2006, does not               All four WMD CSTs had plans in
require that WMD CSTs have garrison standard                 place to prepare them to receive
operating procedures, the NGR 500-3/ANGI 10-2503,           and execute mission orders for the
May 2011, requires that each WMD CST publish                       pre-operational phase.
garrison standing operating procedures detailing the unit
operating procedures. The WMD CSTs developed garrison standard operating guidance that
covered processes and procedures for each unit to follow while on garrison (home station),
including the commander’s training vision, philosophy, and intent; training guidance; and
logistics. The operating guidance also includes information about the unit’s plan to comply with
managing personnel and maintaining equipment.

In addition, the four WMD CSTs maintained copies of the JFHQ-State Contingency Plans for
civil support operations. These contingency plans included instructions for the WMD CSTs to
request assistance from and offer support to other WMD CSTs, when needed. Also, the
95th WMD CST developed plans to conduct emergency response drills to test their response to
incidents. The Commander created an annual training plan based on the CBRNE spectrum, new
trends, global events, and the needs of the State’s first responders. Further, the 53rd WMD CST
developed “Command Readiness Guidance” that addresses the Commander’s vision and intent
for readiness and training. The purpose of this guidance was to maintain an operational posture
that ensured the 53rd WMD CST was fully manned, trained, and equipped to respond.




5
 According to the FM 3-11.22, the preoperational phase begins after certification and continues until the
WMD CST receives a validated deployment or mission order.


                                                         4

Additionally, the 2nd WMD CST had, “Logistics Standard Operating Procedures,” to assist in
daily management of logistics operations. The primary objective of the standard operating
procedures was to ensure that the team was ready to deploy. Also, the 2nd WMD CST used the
Standardization, Evaluation, and Assistance Team training checklist to ensure that the team met
NGB training requirements. The Commander developed exercises to test the WMD CST’s
responses to different incidents.

Operational Phase Plans to Help WMD CSTs Execute Missions
The four WMD CSTs had plans in place to execute missions for the operational phase.6 The
                                               WMD CSTs developed Tactical Standard
     The WMD CSTs developed Tactical
                                               Operating Procedures or a Tactical Standard
    Standard Operating Procedures or a
                                               Operating Guide that included processes and
   Tactical Standard Operating Guide that
                                               procedures the unit would follow from the initial
   included processes and procedures the
                                               alert to execution of the mission. Also, the
  unit would follow from the initial alert to
                                               2nd WMD CST conducted its planning through an
           execution of the mission.
                                               operation brief before the mission began to
review site images, graphics, maps, and mission details. The 2nd WMD CST planned which
mode of movement to use and coordinated with the State police for escort to the incident site,
depending on traffic patterns. The 95th WMD CST used an operations checklist when
responding to a mission. The operations checklist documented the situation, organizations
present, CBRNE agents identified, and casualties. In addition, the 95th WMD CST developed a
movement checklist to identify the situation, mission, personnel assigned to the mission, and
maneuver plan.

Post-Operational Phase Plans for WMD CSTs to Resume Operational
Readiness
All four WMD CSTs had plans in place to resume operational readiness for the post-operational
phase.7 The WMD CSTs developed
                                              The WMD CSTs developed Tactical Standard
Tactical Standard Operating
                                              Operating Procedures or a Tactical Standard
Procedures or a Tactical Standard
                                            Operating Guide, which included processes and
Operating Guide, which included
                                            procedures the unit will follow, after the mission,
processes and procedures the unit will
                                                       to prepare for redeployment.
follow, after the mission, to prepare for
redeployment. Those processes
included personnel and equipment accountability, close out of all reports, medical screening, and
reconstitution of unserviceable or consumed items. In addition, the 9th WMD CST developed
Real World Response Mission Standard Operating Procedures that address procedures the unit
will follow to prepare for redeployment after a mission is completed. The 95th WMD CST
developed plans to conduct refit operations after a mission to ensure equipment is ready for the


6
  According to the FM 3-11.22, the operational phase begins at the time of notification and ends when the team is
formally relieved in place, has met the requirements outlined in the unit exit strategy, or has been released from the
incident.
7
  According to the FM 3-11.22, the post-operational phase begins when the commander issues the order to cease
operations at the incident site and begin redeployment activities. The post-operational phase ends when the unit has
completed full reconstitution and resumes the operational readiness cycle.


                                                          5

next mission. The 2nd WMD CST used a post-operational checklist that provided guidance on
refueling vehicles, washing vehicles, accounting for items, and submitting a closure report to the
New York Joint Operation Center when the unit was ready for deployment.

Management Comments on the Finding and Our Response
National Guard Bureau Comments
The Director, National Guard Bureau-J3, Domestic Operations and Force Development
Directorate agreed that the four WMD CSTs reviewed had plans in place to respond to disasters
during the preoperational, operational and post operational phases.

Our Response
The Director’s comments were consistent with the audit report.




                                                6

Finding B. The National Guard’s WMD CSTs
Reviewed Need to Improve the Reporting on
Missions
The four WMD CSTs did not fully meet the reporting requirements to keep NGB aware of their
movements and operations. Specifically, the WMD CSTs did not provide required termination
reports, SITREPs and AARs, and complete information for AARs. Also, NGB records showed
that the WMD CSTs conducted 409 response, stand-by, and assist missions from FY 2008
through FY 2011, while the teams’ records showed a total of 640 missions for the same time
period. This occurred because NGB-J3/DO, personnel did not clarify reporting expectations or
adequately oversee how the WMD CSTs implemented the reporting requirements identified in
the NGR 500-3/ANGI 10-2503. As a result, NGB did not have situational awareness of
WMD CSTs’ ability to immediately respond to a release of CBRNE and natural or man-made
disaster.

WMD CSTs Did Not Fully Meet Reporting Requirements
The WMD CSTs did not fully meet the reporting requirements identified in
NGR 500-3/ANGI 10-2503. The NGR 500-3/ANGI 10-2503 requires WMD CSTs to submit
termination reports at the conclusion of all response missions; and provide SITREPs and AARs
for all response and stand-by missions. The WMD CSTs are required to submit these reports to
the NGB JoCC through the JFHQ-State. The regulation also identified information that the
reports should cover or include. Further, the regulation required the JFHQ-State to notify the
NGB JoCC of all WMD CST missions. However, WMD CSTs did not provide all required
reports, include complete information in the reports, and report missions consistent with the
missions that NGB reported.

Termination Reports Omitted for Response Missions
The NGR 500-3/ANGI 10-2503 requires the WMD CST commander to provide a termination
                                          report to the incident commander before leaving the
    The 9th and 53rd WMD CSTs did not     incident site and to submit the report through the
   complete termination reports for the   JFHQ-State to NGB JoCC. However, this did not
     three response missions and eight    always occur. The 9th and 53rd WMD CSTs did not
      response missions, respectively,    complete termination reports for the three response
      from FY 2008 through FY 2011.       missions and eight response missions they conducted,
                                          respectively, from FY 2008 through FY 2011. The
  th      nd
95 and 2 WMD CSTs did not complete termination reports because the teams did not
participate in response missions from FY 2008 through FY 2011.

The 9th and 53rd WMD CSTs stated that they conducted training to complete termination reports,
but never prepared the reports at the conclusion of a response mission. Personnel from both
WMD CSTs stated they “believed” that since NGR 500-3/ANGI 10-2503 requires the
WMD CSTs to prepare termination reports for the incident commander, the team should only
prepare a termination report, if the incident commander requested one. The 9th and 53rd
WMD CSTs added that thus far, incident commanders did not request a termination report and



                                               7

the teams did not receive any feedback from NGB requesting the report. As a result,
WMD CSTs did not prepare termination reports after completing their response missions.

SITREPs and AARs Not Provided for All Response and Stand-by
Missions
None of the WMD CSTs reviewed provided copies of SITREPs and AARs for all response and
stand-by missions conducted from FY 2008 through FY 2011. NGR 500-3/ANGI 10-2503
requires WMD CSTs to prepare and provide SITREPs and AARs through JFHQ-State to
NGB JoCC for all response and stand-by missions. Copies of these reports would provide
NGB JoCC accurate information related to the WMD CSTs’ operations and movements.

From FY 2008 through FY 2011, the four WMD CSTs reported a total of 199 response and
stand-by missions (11 response missions and 188 stand-by missions). Of the 199 missions, the
WMD CSTs provided SITREPs for 17 missions and AARs for 45 missions. The 9th and 53rd
WMD CSTs conducted a total of 11 response missions during the period audited, but only
provided SITREPs for 1 mission and AARs for 3 missions. During that same period, the
4 WMD CSTs conducted a total of 188 stand-by missions, but only provided SITREPs for
16 missions and AARs for 42 missions. Table 1 shows the number of SITREPs and AARs that
each WMD CST provided for response and stand-by missions.

     Table 1. Number of SITREPs and AARs That WMD CSTs Provided for Missions
                           From FY 2008 Through FY 2011
WMD                    Response Mission                  Stand-by Mission
CSTs           Mission    SITREPs       AARs     Mission    SITREPs        AARs
                List      Provided     Provided    List      Provided     Provided
9th WMD           3          1            2         24           2           11
CST
95th WMD          0          0            0         21           0            8
CST
2nd WMD           0          0            0         20          14           12
CST
53rd WMD          8          0            1        123           0           11
CST
 Total           11          1            3        188          16           42

The four WMD CSTs stated that the teams could not provide SITREPs and AARs for each
mission because they did not maintain a record or copy of the reports; NGB did not request the
reports; or, to complete the report was not a priority. For example, the 9th WMD CST stated the
team did not have SITREPs for all missions because they did not log SITREPs completed by
telephone. Also, the 9th WMD CST stated that the team completed AARs after every major
incident, but only kept records for 2 years and cited NGR 500-3/ANGI 10-2503, January 2006,
which states, “CST Commanders are responsible for ensuring that accurate and detailed
operational records are maintained for at least 2 years.” When we asked, the 95th WMD CST did



                                               8

not provide a reason for the missing documentation. However, the Deputy Commander,
95th WMD CST, stated that he would inform his team of this issue.

Personnel from the 2nd WMD CST explained they did not provide SITREPs and AARs for
missions from FY 2008 through FY 2009 because the NGR 500-3/ANGI 10-2503, January 2006,
only holds WMD CST commanders responsible for maintaining mission records for 2 years.
Additionally, for FYs 2010 and 2011, the Commander, 2nd WMD CST, stated that the team did
not prepare reports for smaller missions, such as an assist mission, that may take an hour for one
person to complete. Lastly, personnel from the 2nd WMD CST added that NGB never requested
the missing reports; therefore, the team did not make completing the reports a priority.

The 53rd WMD CST stated they did not maintain SITREPs for response and stand-by missions
because the team usually communicated SITREPs by e-mail, which they did not keep. Also,
personnel from the 53rd WMD CST stated that the team did not maintain the AARs because of
personnel turnover. The 53rd WMD CST agreed that the team needed to improve their
procedures for filing and maintaining documentation.

Reports Provided Did Not Contain All Required Information
The four WMD CSTs did not include complete information in their AARs for each response and
stand-by mission from FY 2008 through FY 2011, as required by the
NGR 500-3/ANGI 10-2503. According to the NGR 500-3/ANGI 10-2503, the AARs will
provide a thorough review of unit operations from first alert through return to home station.
Because the AARs did not contain complete information, NGB did not have a complete picture
of the units’ operations during these missions.

Of the 199 response and stand-by missions, only 13 missions had complete AARs. The
13 missions represented 2 response missions and 11 stand-by missions. The 9th and 53rd
WMD CSTs completed AARs for the two response missions. The 9th, 95th, and 53rd WMD CSTs
completed AARs for the 11 stand-by missions. Table 2 shows the number of response and
stand-by missions, the number of AARs provided and the number of those AARs that were
complete.




                                                9

            Table 2. Number of Missions With Complete Information in AARs
                          From FY 2008 Through FY 2011
WMD                      Response                              Stand-by
CSTs           Missions     AARs        Complete Missions        AARs     Complete
                Listed     Provided      AARs      Listed      Provided    AARs
9th                3           2           1          24           11        2
WMD CST
95th                0             0             0            21             8             6
WMD CST
2nd                 0             0             0            20            12             0
WMD CST
53rd                8             1             1           123            11             3
WMD CST
   Total           11             3             2           188            42            11

Three WMD CSTs did not include complete information in their AARs for each response and
stand-by mission because the WMD CSTs stated that the teams “thought” they were providing
the required information or did not receive feedback from NGB requiring changes to the AARs.
Specifically, the 9th WMD CST stated that the team included all of the information they believed
was required for each report. When we asked, the 95th WMD CST did not provide a reason for
the incomplete AARs. The Deputy Commander, 95th WMD CST, stated the team would work
on improving in this area. Also, the 53rd WMD CST stated that the team never received
feedback from NGB about their information. As a result, the 53rd WMD CST would not know if
the information was inadequate. Since the AARs did not contain complete information, NGB
did not have a complete picture of the units’ operations during these missions.

Additionally, one WMD CST did not follow the guidance in the NGR 500-3/ANGI 10-2503.
The 2nd WMD CST stated that this occurred because the team did not use the guidance to format
their AARs and NGB never informed them that the information included in the AARs was
incomplete. Therefore, personnel from the 2nd WMD CST stated that they never “felt the need to
change the type of information provided.”

The WMD CSTs and NGB Differed in Mission Reporting
The missions that the four WMD CSTs reported did not always match the missions reported by
the NGB JoCC for the WMD CSTs. According to NGR 500-3/ANGI 10-2503, the WMD CSTs
are required to report missions through the JFHQ-State to the NGB JoCC.

From FY 2008 through FY 2011, NGB reported a total of 409 missions (response, stand-by, and
assist) for the four WMD CSTs and the WMD CSTs reported a total of 640 missions. Table 3
provides the number of missions that each of the four WMD CSTs and NGB reported from
FY 2008 through FY 2011.




                                               10

               Table 3. Reported Missions From FY 2008 Through FY 2011
                                         NGB             WMD CST
            9th WMD CST                       57                    117
            95th WMD CST                      17                    48
            2nd WMD CST                      73                    175
            53rd WMD CST                     262                    300
                    Total                    409                   640

The differences in missions that the WMD CSTs and NGB reported were because all missions
conducted were not reported to NGB, the WMD CSTs classified missions differently than the
NGB JoCC, or NGB did not communicate with the WMD CSTs to request accurate mission
data. Because of the difference in WMD CST missions reported, NGB did not have an accurate
count of the missions in which the WMD CSTs participated.

All Missions Were Not Reported to NGB
The 9th and the 53rd WMD CSTs reported missions that were inconsistent with the missions that
NGB reported for these WMD CSTs because the WMD CST or the JFHQ-State decided not to
report all missions to NGB. For example, the Commander, 9th WMD CST, stated that the team
conducted many assist missions but only informed NGB of the ones they “believed to be
significant.” The WMD CST Commander further explained that the team followed what they
“believed was the intent of NGR 500-3/ANGI 10-2503.”

Personnel from JFHQ-Indiana J3 stated that, effective October 1, 2010, responsibilities for the
53rd WMD CST transitioned from the Chief of Staff to the JFHQ-Indiana J3, and some missions
might not have been reported to NGB under the Chief of Staff. JFHQ-Indiana J3 also explained
that they might not have reported some missions to NGB during the time JFHQ-Indiana J3 was
not operating at 24/7 because of lack of funds. However, personnel from JFHQ-Indiana J3 stated
that they forwarded everything received from the 53rd WMD CST to NGB.

For FY 2010 and FY 2011, the Commander, 2nd WMD CST, stated that the team did not prepare
reports for smaller missions, such as assist missions, that may take an hour for one person to
complete. Therefore, NGB did not receive reports on all assist missions. Personnel from the
2nd WMD CST stated that they reported all other missions as required to NGB. Personnel from
the 95th WMD CST stated that they reported their missions to NGB as required. The
WMD CSTs attributed inconsistencies to mission categorization and lack of feedback from
NGB.




                                              11

WMD CSTs Categorized Missions Differently Than NGB
The missions that the WMD CSTs reported varied from the missions that NGB reported for these
WMD CSTs because the WMD CSTs and NGB did not categorize missions similarly. From
                                                FY 2008 through FY 2011, the 9th WMD CST
   The missions that the WMD CSTs reported and NGB categorized missions differently.
        varied from the missions that NGB       For example, in FY 2009, the unit categorized
   reported for these WMD CSTs because the one mission as a stand-by mission, but NGB
     WMD CSTs and NGB did not categorize        categorized the mission as a response. Also,
                missions similarly.             the unit categorized one mission as an assist
mission that NGB categorized as training.8 In FY 2011, the unit categorized two missions as
assist missions, but NGB categorized the missions as exercises.

In FY 2010, the 95th WMD CST categorized two missions as assist missions, but NGB
categorized these missions as stand-by missions. In FYs 2008, 2009, and 2011, the
2nd WMD CST and NGB categorized missions differently. For example, in FY 2009, the unit
categorized one mission as a stand-by mission that NGB categorized as an assist mission. Also,
in FY 2011, the unit categorized two missions as training that NGB categorized as assist
missions.

Further, in FYs 2009 and 2010, the 53rd WMD CST and NGB categorized missions differently.
In FY 2009, the unit conducted:

          10 assist missions that NGB categorized as training missions,  
          1 stand-by mission that NGB categorized as a training mission,  
          4 assist missions that NGB recorded as 1 training mission,  
          3 stand-by missions that NGB recorded as 1 stand-by mission, and  
          2 assist missions that NGB recorded as 1 training mission.   
            
In FY 2010, the unit conducted seven assist missions that NGB categorized as either training or
exercise missions, two assist missions that NGB recorded as one training mission, and two assist
missions that NGB recorded as one exercise.

NGB Did Not Communicate With the WMD CSTs to Request Accurate
Mission Data
The four WMD CSTs reported missions that were different than the missions that NGB reported
for the WMD CSTs because NGB did not inform them that the mission data was not accurate or
request any changes or additional information. The 9th WMD CST personnel stated that the team
included all of the information they “thought” was required for each report. The Commander,
2nd WMD CST, stated that NGB required the team to send a quarterly forecast of the missions,
instead of the log of the actual missions; and the Commander stated that he “thought the
reporting requirements were satisfied at the NGB level.” Personnel from the 53rd and
95th WMD CSTs stated that the teams did not know that their information was inaccurate. Also,
personnel from the four WMD CSTs stated that they did not receive feedback from NGB about


8
    Training missions did not have the same reporting requirements as response, stand-by, and assist missions.


                                                           12

the information they sent forward. As a result, the teams would not know if the information
provided was inaccurate or that NGB needed more information.

NGB-J3/DO Needs to Improve Oversight of WMD CSTs’
Reporting
NGB-J3/DO did not clarify reporting requirements or adequately oversee how the WMD CSTs
                                                              implemented the reporting
      NGB-J3/DO was responsible for overseeing the            requirements in the
    implementation of the reporting requirements in the       NGR 500-3/ANGI 10-2503.
       NGR 500-3/ANGI 10-2503, which requires the             NGB-J3/DO was responsible for
   WMD CSTs to report their operations and movements          overseeing the implementation of
         through the JFHQ-State to the NGB JoCC.              the reporting requirements in the
                                                              NGR 500-3/ANGI 10-2503, which
requires the WMD CSTs to report their operations and movements through the JFHQ-State to the
NGB JoCC. However, NGB personnel did not verify that the WMD CSTs submitted all required
reports for missions (terminations, SITREPs, and AARs), submitted AARs contained complete
information, and all missions that the WMD CSTs completed were accounted for. Also, NGB
personnel did not communicate with the WMD CSTs through the JFHQ-State to obtain any
additional data or to inform them of changes to mission data such as categorization of missions.

Personnel from the NGB JoCC explained that receiving and compiling data from the
WMD CSTs was an additional duty and because the personnel were contractors, they could not
directly communicate with WMD CSTs to reconcile mission numbers and follow-up on reports
that were not sent to the NGB JoCC from the JFHQ-State. NGB-J3/DO officials need to develop
an oversight process to ensure that they receive pertinent data to make informed decisions.

Conclusion
The four WMD CSTs reviewed did not fully meet reporting requirements to keep NGB aware of
the teams’ movements and operations. Specifically, the WMD CSTs did not provide all required
reports, include complete information in the reports and report missions consistent with missions
that NGB reported for the WMD CSTs. Accurate reporting is vital for maintaining NGBs’
situational awareness of the WMD CSTs’ operations and movements and it allows NGB to know
the status of the WMD CSTs if they are needed to respond to a release of CBRNE and natural or
man-made disaster.

Management Comments on the Finding and Our Response
Summaries of management comments on the finding and our response are in Appendix B.




                                               13

Recommendations, Management Comments, and Our
Response
We recommend that the Director, National Guard Bureau-J3, Domestic Operations and
Force Development Directorate, develop a written oversight plan in coordination with
personnel from each Joint Force Headquarters-State that:

       1. Verifies compliance with mission reporting requirements, and

       2. Provides feedback to Weapons of Mass Destruction Civil Support Teams on
omissions and errors.

National Guard Bureau Comments
The Director, National Guard Bureau-J3, Domestic Operations and Force Development
Directorate, stated that he agrees that there is room to improve oversight of the WMD CST
reporting process. Specifically, the Director indicated that NGB-J3 will take steps to clarify
reporting requirements and mission categorization, verify compliance of WMD CSTs with
reporting requirements in the NGR 500-3/ANGI 2503, conduct periodic reviews of mission
reports, establish an Operations and Reporting category as part of the WMD CST
Standardization Evaluation Assessment Team program, develop an Operations checklist to
incorporate in the team’s assessments, and establish an improved feedback process to ensure
accuracy of data received and recorded.

Our Response
The Director did not specifically state whether he agrees or disagrees with the recommendations;
however, the actions planned are partially responsive to the intent of the recommendations. We
commend the Director’s planned steps to verify compliance of the WMD CSTs with reporting
requirements and establish an improved feedback process between NGB and the States.
However, the Director did not identify specific actions to develop a written oversight plan in
coordination with personnel from each Joint Force Headquarters-State. We ask the Director to
provide additional comments in response to the final report by August 1, 2012.

Management Comments on the Report and Our Response
National Guard Bureau Comments
The Director, National Guard Bureau-J3, Domestic Operations and Force Development
Directorate, provided comments on the content of the audit report. The majority of the
comments addressed the Director’s preferences for editing and presenting the information in the
report. Specific examples addressed in our response include the Director’s suggestions that we
reorder the list of required reports, add information on Operational Readiness Situation Reports
and the Standardization Evaluation Assessment Team, and change the name of “NGB JoCC” to
the “National Guard Coordination Center” throughout the audit report.




                                                14

Our Response
We considered the Director’s editorial and presentation comments when preparing the final
report. We did not reorder the list of required reports because we based the order on reporting
requirement similarities, not on the order in which reports were submitted. We reviewed the
Operational Readiness Situation Reports but we did not include them in our audit results because
they were not required for missions. We also reviewed the Standardization Evaluation
Assessment Team program and determined that the program did not evaluate the planning and
reporting of missions. Therefore, we did not include the program in the scope of our audit.
In addition, we did not change the name of the “NGB JoCC” to the “National Guard
Coordination Center” because the latest guidance, NGR 500-3/ANGI 10-2503, updated
May 2011, uses the name “NGB JoCC” throughout the document. In addition, the Director did
not provide documentation supporting the name change from the “NGB JoCC” to “National
Guard Coordination Center.”




                                              15

Appendix A. Scope and Methodology
We conducted this performance audit from June 2011 through March 2012 in accordance
with generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

We evaluated the WMD CSTs’ planning and reporting in response to intentional or
unintentional release of CBRNEs and natural or man-made disasters from FY 2008
through FY 2011. From a total of 57 WMD CSTs located across the continental United
States and three territories (Guam, Puerto Rico, and the Virgin Islands), we identified the
following four WMD CSTs to review:

       9th WMD CST, Los Alamitos, California;
       95th WMD CST, Hayward, California;
       2nd WMD CST, Scotia, New York; and
       53rd WMD CST, Indianapolis, Indiana.

We selected the 9th, 95th, and 2nd WMD CSTs because they were located in States with
more than one WMD CST. We selected the 53rd WMD CST because of low scores on
the NGB’s WMD CST Standardization, Evaluation, and Assistance Team evaluation.*

We met with personnel from NGB-J3/DO and NGB JoCC to gain a better understanding
of the WMD CST Program and NGB policies. The NGR 500-3/ANGI 10-2503 and the
FM 3-11.22 provide the WMD CSTs with instruction on roles and responsibilities and
processes and procedures that the WMD CSTs are required to follow for their missions.

During our visits to California, New York, and Indiana, we met with personnel from
NGB JFHQ to discuss their roles and responsibilities in the planning and reporting
processes of the WMD CST units assigned to them. In addition, while visiting the
various NGB JFHQ-State offices, we interviewed personnel from the Joint Operations
Center, the U.S. Property and Fiscal Office, Internal Review, and the State Internal
Control Administrator.

At the various WMD CST sites, we interviewed personnel within the command,
operations, logistics, and communication components. We focused on the WMD CSTs’
planning throughout the pre-operational, operational, and post-operational phases. We


*
  According to NGB, the Standardization, Evaluation, and Assistance Team conducts field evaluations of
the 57 WMD CSTs to assess the degree of compliance with law, policy and doctrine; assist CST
Commanders in developing programs to maintain compliance; provide NGB detailed information for use in
CST management decisions; and to assure Congress and the DoD of program oversight.


                                                 16

assessed whether the WMD CSTs had planning procedures in place to respond to
CBRNE and natural or man-made disasters. Also, we reviewed their standard operating
procedures and their plans for obtaining additional resources.

We reviewed the four WMD CSTs’ reporting for response, stand-by, and assist missions
completed from FY 2008 through FY 2011. We identified a total of 640 missions that
the WMD CSTs documented from FY 2008 through FY 2011. We compared these
results with the response, stand-by, and assist missions that NGB JoCC recorded for the
same period of time to identify any inconsistencies.

In addition, we reviewed the mission documentation the WMD CSTs maintained for a
total of 199 response and stand-by missions conducted from FY 2008 through FY 2011.
The documentation included termination reports for all response missions and, SITREPs
and AARs for response and stand-by missions. For the 199 response and stand-by
missions conducted, the WMD CSTs maintained SITREPs for 17 missions and AARs for
45 missions. We further reviewed the 45 AARs provided to assess the completeness of
these reports. We also checked for the termination reports that the WMD CSTs
maintained for the 11 response missions.

Use of Computer-Processed Data
We did not use computer-processed data to perform this audit.

Prior Coverage
During the last 5 years, the Government Accountability Office (GAO) issued two reports
discussing National Guard’s Weapons of Mass Destruction Civil Support Teams.
Unrestricted GAO reports can be accessed over the Internet at http://www.gao.gov.

GAO
GAO Report No. 08-311, “Enhanced National Guard Readiness for Civil Support
Missions May Depend on DOD’s Implementation of the 2008 National Defense
Authorization Act,” April 16, 2008

GAO Report No. 06-498, “National Guard Bureau Needs to Clarify Civil Support Teams’
Mission and Address Management Challenges,” May 31, 2006




                                          17

Appendix B. Management Comments on
Finding B and Our Response
The National Guard Bureau provided comments on Finding B of the report. For the full
text of the National Guard Bureau’s comments, see the Management Comments section
of the report.

Management Comments on Omission of Termination Reports
The Director, National Guard Bureau-J3, Domestic Operations and Force Development
Directorate, did not agree with the statements obtained from the WMD CST units that
they believed they should only prepare termination reports if the incident commander
requested one. He indicated that the NGR 500-3/ANGI 10-2503 specifically states that
the WMD CST commander will provide a detailed summary of WMD CST activities in
the form of a termination report to the incident commander while on scene.

Our Response
The Director’s comments were consistent with the finding and the
NGR 500-3/ANGI 10-2503.

Management Comments on SITREPS and AARs Not Provided for
All Response and Stand-by Missions
The Director, National Guard Bureau-J3, Domestic Operations and Force Development
Directorate, indicated that NGR 500-3/ANGI 10-2503 did not specifically require
WMD CSTs to provide SITREPs and AARs for stand-by missions. He stated that
NGR 500-3/ANGI 10-2503 did require the team to submit reports when they deploy,
redeploy, and then reassume the ready status for the next operations. Also, the Director
stated that if a unit remains at its home station and does not deploy to the stand-by
mission site, the unit would not submit required reports.

The Director also commented on statements from the WMD CSTs that, “the team did not
prepare reports for smaller missions” or “NGB never requested the missing reports.” He
stated that if the team never submitted reports because they did not deploy, then NGB
would not be notified that a mission was taking place. Therefore, NGB could not request
missing reports.

Our Response
According to NGR 500-3/ANGI 10-2503, stand-by missions occur anytime a team
deploys to provide WMD CST expertise at an event where the WMD CST may be the
only asset or staged with other State assets to conduct operations. Given that the
NGR 500-3/ANGI 10-2503 requires the team to submit SITREPs and AARs when the
WMD CST deploys and defines a stand-by mission as anytime a team deploys, the team
is required to submit SITREPs and AARs for stand-by missions. NGB did not request
these reports for all stand-by missions. When the WMD CSTs did not deploy, they
classified the mission as an assist mission. SITREPs and AARs are not required for assist
missions since the team does not deploy.

                                           18 

The Director combined statements from unrelated sections of the report. The Director’s
statement about smaller missions relates to assist missions. We did not state that assist
missions needSITREPs and AARs. The statement that the WMD CSTs made about NGB
never requesting the missing reports relates to SITREPs and AARs for response and
stand-by missions.

Management Comments on Reports Provided Did Not Contain
All Required Information
The Director, National Guard Bureau-J3, Domestic Operations and Force Development
Directorate stated that if the reporting process is not followed or if reports are submitted
to the State Joint Operations Center but not forwarded to NGB, then NGB would not
know that a mission occurred. He further stated that without an initial SITREP and
subsequent update reports, NGB would not know to request an AAR for a mission that
NGB had no knowledge had occurred, limiting their situational awareness. Additionally,
the Director stated that the probable causes for NGB’s lack of updated situational
awareness are personnel shortage and the units and States not following the proper
reporting process identified in NGR 500-3/ANGI 10-2503. The Director also commented
that NGB’s manpower level may be insufficient to support the mission tracking and
required reporting activities of all 57 WMD CSTs without reliance on the teams and
States to follow the reporting process.

Our Response
Although the Director stated that NGB would not know that a mission occurred if the
WMD CSTs did not follow the reporting process for AARs or if NGB did not receive the
AARs submitted through the State, it does not negate NGB’s responsibility to ensure the
reporting requirements they established in the NGR 500-3/ANGI 10-2503 are followed.
Based on NGB’s statement about current manning levels affecting their ability to review
and track missions, NGB may want to evaluate the current reporting process and
requirements in the NGR 500-3/ANGI 10-2503.

Management Comments on WMD CST and NGB Differences in
Missions Reported
The Director, National Guard Bureau-J3, Domestic Operations and Force Development
Directorate, stated that in 2010, the National Guard Coordination Centeri began sending
quarterly WMD CST mission tally reports. He indicated that in response to the mission
tally reports, NGB requested that the units reconcile their numbers with the State Joint
Operations Center to ensure that the reports and types of missions conducted were
forwarded to NGB. The Director commented that based on the
NGR 500-3/ANGI 10-2503, the notification process begins at the State level with the
validation of the support request and then deployment of the WMD CSTs, which requires
immediate reporting. The Director stated NGB would not know to request mission


i
 The team did not replace the NBG JoCC with the term National Guard Coordination Center throughout
the report because NGB did not provide documentation showing the name change.

                                                 19 

updates if the WMD CSTs never notified NGB that a mission took place. He also stated
that NGB must place increased emphasis on both State Joint Operations Center and
WMD CST for accurate and timely mission reporting. Further, the Director commented
that National Guard Coordination Center and the WMD CST Program Office must
increase scrutiny of reports that the WMD CSTs submitted and NGB will use the
Standardization Evaluation Assistance Team program to assess the WMD CSTs’
compliance with reporting and operations as part of NGB’s management control process.

Our Response
The Director’s comments were generally consistent with the intent of the report. During
our assessment of the four WMD CSTs, the units did not provide any documentation that
showed NGB requested the WMD CSTs to reconcile mission numbers quarterly.
However, with the proposed increased emphasis on both the State Joint Operations
Center and the WMD CSTs, NGB could have a more accurate count of the missions that
the WMD CSTs participate in. We appreciate the Director’s comments that NGB will
the use of the Standardization Evaluation Assistance Team program to aid NGB with the
assessment of the WMD CST’s compliance with reporting and operation requirements.

Management Comments on WMD CST Missions Categorized
Different From NGB
The Director, National Guard Bureau-J3, Domestic Operations and Force Development
Directorate, stated that some WMD CSTs may perceive a mission differently than NGB.
He commented that if NGB had a question or needed clarification about a mission that
the WMD CSTs reported, NGB would normally ask the unit to explain the mission
category chosen based on those identified in the NGR 500-3/ANGI 10-2503. The
Director also stated that if NGB determined that the mission category needed to be
changed, NGB notified the unit by e-mail. He commented that if the unit did not make
the change, there would be a mission category discrepancy in the units’ records.
However, the Director then stated that when NGB changed a mission category they did
not provide feedback to the WMD CSTs. Further, the Director indicated that NGB will
provide clarification to units and States on the mission categorization, incorporate a
review of reports by the National Guard Coordination Center quarterly, and ensure
compliance with guidance during Standardization Evaluation Assistance Team
inspections.

Our Response
During our assessment of the four WMD CSTs, the WMD CSTs did not provide any
documentation that showed NGB provided feedback to the WMD CSTs on mission
category changes. In addition, we indicate in the report that the units stated that they did
not receive any feedback of mission category changes from NGB. The Director first
stated in his comments that NGB provided feedback to the teams through e-mail and then
later acknowledged that NGB did not provide feedback on mission category changes.
Ensuring NGB provides feedback to the WMD CSTs could decrease mission
categorization errors.



                                            20 

Management Comments on NGB Not Requesting Accurate
Mission Data From the WMD CST
The Director, National Guard Bureau-J3, Domestic Operations and Force Development
Directorate stated that he used information that the teams provided on their quarterly
training forecast of events/training and in requested reconciliations at the conclusion of a
training quarter. He indicated that National Guard Coordination Center used SITREPs to
develop the consolidated mission tally report. Additionally, the Director stated that NGB
did not request the actual mission logs from the units, but assumed that these logs were
used to develop the units’ quarterly summary. To improve oversight of mission
reporting, the Director indicated that NGB will use the monthly Operational Readiness
SITREP to capture the WMD CST mission log data. The Director commented that this
should eliminate NGB from making a determination of mission type and not providing
feedback the unit, help determine if any mission reports are missing, and identify
discrepancies between the types of missions that the WMD CSTs reported and NGB
recorded.

Our Response
We mention that NGB asked for quarterly forecasts of training/events but did not request
actual mission logs according to WMD CSTs. Also, the units stated that they did not
receive feedback from NGB requesting complete and accurate data. Therefore, the units
continued to provide the same type of incomplete information in their reports. However,
we appreciate the Director’s comments on actions that NGB will take to improve
oversight of mission reporting.




                                             21 

National Guard Bureau Comments






                                  NATIONAL GUARD BUREAU
                                       1630 DEFENSE PENTAGON
                                      WASHINGTON DC 20301 -'636




      NGB-J3                                                           17 April 2012


      MEMORANDUM FOR Inspector General, Department of Defense, AnN : Ms Amy
      Matthews, 4800 Mark Center Drive, Alexandria , VA 22350-1500

      SUBJECT: National Guard Input to DoD IG Report, Project No. D2011 -DOOOLA-
      0226.000, March 12, 2012 entitled "Better Oversight Needed for the National Guard's
      Weapons of Mass Destruction Civil Support Teams"


      1. Reference DoD IG Report , Project No. D2011 -DOOOLA-00226.000, "Better Oversight
      Needed for the National Guard's Weapons of Mass Destruction Civil Support Teams, "
      dated 12 March 2012.

      2. Per your memorandum the National Guard response has two enclosures: Enclosure
      1 is a response to the 000 IG report content and Enclosure 2 is a response to the
      report recommendations .
                               Click to add JPEG file


                                               ~OL. , S(
                                                 .f.'.r
      Encl as                                   DAVID L. HARRIS
                                                Major General, USA
                                                Director, Domestic Operations &
                                                  Force Development




                                                             22
                      DOD IG REPORT DATED MARCH 2012

                      PROJECT NO. D2011 -DOOOLA-0226.000



 " BETTER OVERSIGHT NEEDED FOR THE NATIONAL GUARD'S WEAPONS OF
              MASS DESTRUCTION CIVIL SUPPORT TEAMS "

                                  ENCLOSURE 1 


                    NATIONAL GUARD BUREAU COMMENTS 

                    TO CONTENT of the DRAFT DoD IG Report 



GENERAL:

      1. The Reports process noted in NGR 500-3 follows : Request is received bv
Stale which validates request for use of WMD-CST on mission from "Alerr notice
WMD-CST begins reporting process on mission to be conducted State JOC forwards
repotts to NGB NGCC, NGB NGCC receives reports. reviews reports. makes
notifications to NG staff and designated partners and then consolidates the missions
tally. WMD-CSTs prowde AARs to include the Termination report (provided at incident
site to the Incident Commander!.

    2. Inconsistent throughout the report: The Process for submission of
mission reports lAW NGR 500-3, Chapter 6 is    WMD-CST submits reports thru
State JOC to NGB JoCC INGCC!.

   3. Reports are submitted, in order, when WMD-CST is deployed by the
governor/states lAW NGB 500-3 ... reports order should read ; · SITREPs,
Tennination Report, and AAR ... ­

  4. Use of term NGB " communicates" ..should read "provides feedback - .. . . 

 which is the tenn used in the DoD IG recommendation. 


                                                                  n
  5. Change term : NGB ~ reported" missions ... should read NGS recorded~
missions - WM D-CST thru the State JOC submit reports to NGCC , NGB NGCC
receives, reviews, provides summa ry to NGB and pa rtners and then consolidates the
mission tallies reported by the units. NGB J3 should review the AAR submissions and
provide feedback on information and details required.




                                                    23
  6. In the prepa ration for the 000 IG review, NGB J3 CST Program Office and
NGB J3 NGCC provided the co nso lidated report of missions that NGB had received
and repo rted to higher ..... in the timeframe of this DoD tG review, thru the reporting
process noted , from the four identified WMO-CSTs, NGB had received 409 response
and standby mission reports and recorded those reports. NGB did not receive the 640
mission reports the WMO-CSTs stated they conducted. 231 mission reports never
made it from the WMO-CSTs throug h the JFHQ State to the NGCC.

  7. All reference to NGB JoCC should be changed to read NGB NGCC


SPECIFIC COMMENTS : (comments made on the content by page)

EXECUTIVE Summary:
Pagei.

What we did

ADD last sentence: NGB supports 57 operational WMD-CSTs in 50 States three
territories (G uam Puerto Rico and Virgin Islands) and the District of Columbia .


What we found :

  The comment is : "The WMO-CSTs reviewed " change to read: The four WMO-CSTs
reviewed...   M


 Add lead sentence to second paragraph: NGB has published and updated
regulato ry guidance (NGR 500-3 WMD-CST Managementl which specifies policy and
procedures for this Program.

Change Sentence: "Specifically, the WMO-CSTs did not provide (reports) .... To read :
"Although WMD-CSTs did provide monthly Operational Ready SITREP (OR SITREPsl
on their overall status (personnel, training and equipment), when deploved to missions.
the WMD-CST did not provide .... lAW the regulatory guidance . "

Change sentence:     ~ As   a result , the NGB did not ha ve situatio na l awareness of WMD­
CSTs.. ," 

To Read : "As a result , the NGB did not ha ve accurate situational awareness of WMO­

CSTs.. ," 





                                                          24
What We Recommend:

Ch ange sentence: 'We recomme nd that the Director, NGB J3, develop a written
oversight plan in coordination with personnel from each (State) that verifies compliance
wilh mission reporting requireme nts and provides feedback .... : To read: "We
recommend Ihat the Director, NGB J3, deve lop a written ove r"ght plan in coordination
with personnel from each (State) that validates missions and ve rifies compliance with
mission reporting requirements and provides feedback .......



DRAFT Report
Page 1_

Background

Cha nge sentence: At the time of the audit , there were 57 WMD-CSTs, ..... and District
of Columbia. Add : (two CSTs in California . Flodda and New York,)

Ch ange sentence: -The WMD-CST was the lead element. . - To read -The WMD-CST
are the lead element.. ...

Change: • In Public Law 109-364, ... WMD-CST could be used to include
intentional. .. .
 To read " In Public Law 109-364, .... WMD-CST could be used from only known or
suspected WMD-incidentlo include intenlional ... :

Cha nge senlence "In a March 9, 2004, news re lease , DoD reported Ihat Ihe WMD­
CST was able .. ." To rea d "Upon certification of each WMD-CST by the SECDEF to
Congress a ODD media release is made which reporls that the WMO-CST f.§. able ....    W




Ch ange sentence:     ~ Each   team was made up of 22 fulltime NG members , and was
commanded by a Lieutenant Colonel .... - To read "Each team i§. made up of 22
rulltime , Title 32 AGR NG members, who serve under the command and Control of the
Govemorand are commanded by a Lieutenant Colonel

Page 2:

 Change senlence: "The NGB J3 plans, programs and oversees the NG WMD-CST
program ... " To read : "The NGB J3 provides policy and guidance , plans, programs
and ove rsees the NG WMD-CST program ... "




                                                       25
Sentence not accurate : "The NGB JoCC coordinate s requests from other federal
agencies for WMO-CST support with the appropriate JFHQ-State ." Change sentence
to read : ~ The State JOe usually receives. coordinates and validates WMD-CST
response or support reguests from local State and federal agencies. NGB J3 wiff
coordinate NSSE events with States and could initiate the WMD-CST support as part of
the NG Response Management Plan IRMPI. NGB J3 NGCC receives reports of WMD­
CST deployment notifies NG Staff agencies and consolidates total mission numbers for
the NGBJ3.•

WMD-CST Program Guidance.

Change sentence: " ... CST FM, De c 07, in normal operations." To read " ... CST FM,
Dec 07 , which spedtfes doctrine and operah'ons conducted bv WMD-CSTs."

Change sentence: "The regulation also defines operational mission catego ries. 

Operational requests from local, State , and federal agencies may fa ll .... " To read : 

"The regulation provides reporting guidance and defines operatio na l mission categories. 

Operational requests are submitted to the State for validation from local , State , and 

federal agenCies may fall. .... 

Change Sentence: ~The regulation descri bes three reports that the vvrvID-CSTs should 

prepare and submit to the NGB JoCC , through the JFHQ-State . To read : The
regulation descri bes fourreports that the WMD-CSTs should prepare and submit to the
NGB NGCC, through the JFHQ-State.

Add Bullet:
These reports include :

   • 	 Operational Ready Situation Report (OR SITREP) - WMD-CSTs are all on the
       NG Response Management Plan (RMP) monthly. This report provides NGB J3
       and NGCC an overall capabilities and available status (Le. overall, personnel,
       tra ining and equipment) of the unit. NGB receives these un~ reports five days
       prior to the month and the n gets updates on a daily, weekly or once a month
       schedule dependent on the un~s RMP deployment category.

Page 3:

Change sentence: liThe FM 3- 11.22 focuses on the organization, mission, ... " To
read:        The FM 3-1 1.22 serves as the foundation of WMD-CST doctrine and
focuses on the organiza tion , mission, ... ~




                                                       26
Page 3 (continued)

Change sentence: liThe guidance addresses employment co ncepts , planning
considerations, capabilities, and type of support ... ," To read : "The guidance
addresses capabilities employment concepts. planning considerations. and type of
support ... ."

Review of Management Controls.

 Add Sentence to middle of the paragraph : The CST Management Regulaffon .
Chapter 15, establishes the Standardization, Evaluation and Assistance Team (SEA T)
program which conducts periodic assessments of WMD-CST comP/iance lAW
published guidance . It was not determined whether CST missions and operational
reporting is reviewed during these visits. However. the SEAT does develop and update
checklists which identify requirements and are used to ensure that each WMD-CST is
meeting published guidance and policies.

Change Sentence: If NGB J3 did not coordinate with JFHQ- State personnel to
verify..... To read: .. NGB J3 did not adequafefycoordinate with JFHQ- State
personnel to verify .... "



Page 7.

Finding B:

Change senlence: "Specifica lly. the WMD-CSTs did nol provide required termination
reports. SI TREPs and AARs. and complele information for AARs." To read :
"Specifically. the WMD-CSTs did not always provide required SITREPs. termination
reports and AARs, and complete informat ion fo r AARs."


Change Sentence: "Also. NGB records showed that the WMD-CSTs conducted 409
responses,.... " To read: MAlso , NGB NGCC records showed from receipt of reports
submitted by the States that the WMD-CSTs cond ucted 409 responses ....

Change sentence: "As a result , NGB did not have situational awareness ofWMD-CSTs
ability to immediately respond .... " To read MAs a result , NGB did not have complete
situational awareness of WMD-CSTs status and unit's ability to immediately respond




                                                    27
Page 7. (continued)

WMD-CSTs did not Fully Meet Reporting Requirements. Sentence two - Order of
reports should read : provide SITREPs, submit termination reports.. ,and complete
AARs for aI/ resoonse and standby missions.

Change next sentence: "The VV'MD-CSTs are required to submit these reports to the
NGB JoCC through the State JFHQ-State." To read ; "The WMD-CSTs are required to
submit these reports through the State JFHQ-State to the NGB NGCC ."

Page 9:

Reports Provided Did not Contain All Required Information.

Change last sentence of first paragraph: -Because the AARs did not contain
complete information , NGB did not have a complete picture of the units' operations
during these missions." To read : ~ Because the AARs did not contain complete
information, NGB did not ha ve a complete record of the units' operations during these
missions,·

Page 10:

First sentence: "Three WMD-CSTs did not include complete information in their AARs
for each response ... " To Read: "Three WMD-CSTs did not include complete
information in their submitted AARs for each response .. ."

Change sentence: wSince the AARs did not contain co mplete information , NGB did not
have a comptete picture of the unit's operations during these missions." To read :
"Since the AARs did not contain complete information. NGB did not have a complete
historical picture of the unit's operations during these missions:



The WMD-CSTs and NGB Differed in Mission Reporting.

Change Sentence: "From FY 2008 through FY2011 , NGB reported a tota l of 409
missions". and the VV'MD-CSTs reported a total of 640 missions." To read: "From FY
2008 through FY2011 , NGB reported receiving a total of 409 missions .. . and the WMD­
CSTs reported conduennq a total of 640 missions."




                                                      28
Add NOTE : For consistency the reporting process outlined;n the WMD-CS T
Regulation is that a WMD-CST will submit the operational reoorts through the State
JOC and the State JOC then tOIWards those submissions to the NGB NGCC.



Page 11.

Change sentence "The differences in missions that the WMD·CSTs and NGB reported
were because all missions cond ucted were not reported to NGB , the WMD·CST
classified missions differently than the NGB JoCC, or NGB did not comm unicate with
the WMO-CSTs to request accurate mission data ."
To read : The differences in missions that the WMD· CSTs and NGB reported were
because all missions conducted were no t reported to NGB. Further, the WM D·CST
classified missions differently tha n NGB NGCC, and when the mission dassification
change was made at NGB that feedback was not provided to the WMD-CSTs nor was
a re quest for more accura te mission data made ....



Page 12.

NGB Did Not Communicate with the WMD-CSTs to Request Ac curate Mission
Data

Change the sentence: " The fo ur WMD·CSTs reported missions that were different
that the missions that NGB reported for the WMD·CSTs .... " To read " The four WMD·
CST reported missions that were different that the missions that NGB recorded for the
WMD·CSTs .... "



Page 13.

NGB J3 , Domestic Operations Directorate Needs to Improve Oversight of WMO ­
CST Reporting

Change sentences : " However, NGB personnel did not verify that the WMD·CSTs
submitted all required reports for missions (Terminations, SITREPs, and AARs),
submitted AARs contained complete information , and all missions that the WMO -CSTs
completed were accounted for. Also , NGB personnel did not co mmunicate with the
WMD· CSTs through the JFHQ· State to obtain any additional data or to inform them of
                                                             n
changes to mission data such as categorization of missions.




                                                       29
To read: "Howeve r, NGB personnel did not verify that the WMD-CSTs submitted all
requ ired reports for missions (SITREPs Terminations and AARs) , submitted AARs
contained complete information, and all missions that the WMD-CSTs conducted we re
accurately recorded. Also , NGB J3 personnel did not provide adequate feedback on
mission status changes or on the need for the unit to submit added data on mission
reported.

Conclusion

Change the sentence: "The four WMD·CSTs reviewed did not fully meet the reporting
requirements to keep NGB aware of the teams' movements and operations."
To read "The four WMD·CSTs reviewed did not fully meet the repo rting req uirements
to keep NGB aware of the teams' movements, operations, and readvstatus.:




                                                     30
                       DOD IG REPORT DATED MARCH 2012
                       PROJECT NO.     D2011 - DOOOLA~226.000



 " BETTER OVERSIGHT NEEDED FOR THE NATIONAL GUARD' S WEAPONS OF 

              MASS DESTRUCTION CIVIL SUPPORT TEAMS" 


                                    ENCLOSURE 2 


                     NATIONAL GUARD BUREAU COMMENTS 

                      TO THE DOD IG RECO MMENDATIONS 




DoD IG RECOMMENDATION: Thai the Director, National Guard Bureau-J3, Domestic
Operations Directorate, develop a writte n oversight plan in coordination with personnel
from each Joint Force Headquarters-State that:


      1. Verifies compliance with mission reporting reqUirements, and

      2. Provi des feedback to Weapons of Mass Destruction Civil Support Tea ms on
          omissions and errors.

      NGB Res ponse : T he DoD IG specified focus of this audit was to evalua te the
      Planning and Reporting of NG WM O-CSTs in respo nse to intentional and
      unintentional release of e BRN and natural or manmade disasters that result in or
      cou ld result in catastroph ic loss of life or property.


      Finding A : Concur. The four WMD-CSTs, reviewed , had plans in place to
      respond to disasters (preoperational, operational and post operational plans in
      place . The FM 3-11 .22 and the NGR 500-3/ANGI 10-2503 identify different ways
      for meeting the planning req uirements. Therefore, the plans varied among the
      WMD CSTs. These plans included, but are not limited to yearly training
      guidance , sta ndard operating procedures, and safety procedures.


      Finding B: Non Concur .
      DoD IG Narrative summary: The National Guard's WMD CSTs reviewed need to
      improve their reporting on missions. The four WMD-CSTs, reviewed , did not fully
      meet reporting requirements to keep NGB aware of their movements and
      operations. SpeCifically, the WMD-CSTs did not provide requi red termination
      reports, SI TREPs and AARs. Also , NGB NGCC records showed that the WMD
      CSTs conducted 409 respo nse and stand-by missions from FY 2008 through FY
      2011, while the teams' records showed a total of 640 missions for the same time




                                                     31
period . This occurred because NGB-J3, Domestic Operations Directorate
personnel did not clarify reporting requirements identified in the NGR SOO-3/ANGI
10-2503. As a result , NGB did not have situational awareness of WMD-CSTs'
ability to immediately respond to a release of CBRNE and natural or man-made
disaster.
NGB Comment on Narrative: As stated in the report, the WMD-CSTs are
required to submit reports to the NGB JoCC (now the NGCC) through their
respective JFHQ-State . However, WMD-CSTs did not provide all required
reports, include complete information in the reports, and report missions
consistent with the missions that NGB reported . The teams (gth and 53rc1) stated
that they "believed " the team should only prepare a termination report , if the
incident commander requested one. In the NGR 500-3/ANGI 10-2503, chapter
7-15, it specifically states "prior to leaving the incident site, the WMD-CST
Commander will provide the IC a detailed summary ofVVMD-CST activities wh ile
on scene in the form of a Termination Report". It goes on to read "A copy of this
report will be included in the AAR and submrtted through the JFHQ-State to the
NGB JoCC". Nowhere in the NGR SOO-3 does it state that this will be done only
if requested by the Incident Comma nder.
As stated in the report, as in discussions between NGB and the DoD IG Team ,
none of the WMO-CSTs reviewed provided copies of SITREPs and AARs for all
response and stand-by missions conducted from FY 2008 through FY 201 1.
NGR 500-3/ANGI 10-2503 does not specifically require a WMD-CST to provide
SITREPs and AARs for stand-by missions. NGR 500-3/ANG11 0-2S03 does
require that the reports (SITREPs, Termination report and AAR) are submitted
when a unit deploys, redeploys , and then reassumes the ready status for the
next operation . If a unit remains at home station and does not deploy to the
stand-by mission slte, the reports required would not be submitted. T he WMD­
CST teams involved in this DoD IG review stated to the DoD IG team that "the
team did not prepare reports for smaller missions" or W  NGB never req uested the
missing reports" . If the unit ne ver submitted reports as they did not deploy, then
NGB would not be notified that a mission was taking place . That said , how could
NGB request missing reports for a mission that did not occur?
As stated in the report , the four WMD-CSTs did not include complete information
in their AARs for each response and stand -by mission from FY 2008 through FY
2011 , as required by the NGR 500-3/ANGI 10-2503. The WMD-CSTs stated that
the teams "thought" they were providing the required information. Further, they
stated that based on not receiving NGB feedback the unrt felt their submissions
were adequate and required no changes. Again , ifthe reporting process was not
followed , or reports were submitted to the State JOe but not forwarded to NGB,
then NGB would not know that a mission was occurring . Without an initial
SITREP and subsequent update reports NGB would not know to request an AAR
for a mission that NGB had no knowledge the event was occurring.
Under the current manning level within the WMD-CST program office and the
NGCC, and witho ut units and States following the proper reporting process
indentified in NGR 500-3 , NGB staff lack of update situational awareness and




                                                 32
information would have caused issues with review, validation, and follow on
requests addressing operational issues and the need for follow on
documentation. For missions that NGB did have knowledge of, NGB J3 NGCC
and the WMO-CST Program Office have only one person each to review and
track mission is the probable cause of the systemic failure identified. The current
NGB manpower level may be insufficient to support the mission tracking and
required reporting activities of all 57 WMO-CSTs w~hout reliance on the teams
and States to follow the reporting process. This is an area that NGB needs to
improve .
As stated in the report, the missions that the four WMD-CSTs reported did not
always match the missions reported by the NGB JoCC for the WMO-CSTs. The
differences in mission numbers either occurred because all missions were not
reported to NGB , the WMO-CSTs classified missions differently than the NGB
JoCC, or NGB did not communicate with the WMD-CSTs to request accurate
mission data . The WMO-CSTs also stated that they had conducted many assist
missions but only informed NGB of the ones they "believed to be significanf.
Starting in 2010, the NGCC pac began to send out a quarterly WMO-CST
mission tally reports which identified reports recei ve d. Units were requested to
reco ncile their numbers with the State JOCs to ensure that the reports and types
of mission conducted were forwarded to NGB . On average only 7 WMO-CSTs
responded with changes to their mission numbers. The notification process
begins at the State level with the validation of the support request and then
deployment of the unit which as noted in the regulation requires "immediate
reporting ." If NGB was ne ve r notified that a mission is taking place, NGB would
not know to request mission updates. NGB must place increased emphasis on
both State JOCs and WMO-CSTs for accurate and timely mission reporting.
Further, NGB NGCC and the WMO-CST Program Office must increase scrutiny
of submitted reports and WMD-CSTs reporting and operations will be renewed in
the management controls process using SEAT to assess compliance.
As stated in the report, the missions that the four WMD-CSTs reported varied
from the missions that NGB annotated/identified because the WMD-CSTs and
NGB did not categorize missions similarly. It is true , that some WMD-CSTs may
perceive a conducted mission differently than NGB . When the report is received
and NGB has a question, normally NGB will ask the un~ for clarification in light of
the mission categorizations identified in NGR 500-3/ANGI 10-2503. If NGB
determines that the mission classification needs to be changed , the unit is
notified by email. If the unit does not then change their mission classification in
their records , a discrepancy will exist. NGB will provide clarification to units and
States on the mission categorization , will incorporate a review of reports by the
NGB NGCC quarterly, and will e nsure compliance with guidance during SEAT
inspections.
As stated in the report , the four WMO-CSTs reported missions that were different
than the missions that NGB reported for the WMO-CSTs because NGB did not
inform them that the mission data was not accurate or request any changes or
additional information. NGB acknowledges that feedback was not provided when




                                                  33
a mission category was changes. Howeve r, NGB did use information provided
by teams on their quarterly training forecast of eventsltraining. At the conclusion
of a training quarter, NGB NGCC requested a reconciliation of training and
missions conducted . NGB also used the SITREPs as va lid missions conducted
to develop the consolidated mission tally report. NGB has not requested the
actual mission logs units but assumed that these logs were used to develop the
unit's quarterly summary. These reports and logs should be maintained at the
unit location lAW NGR 500-3/ANG11 0-2503 guidance and should be reviewe d
as part of the SEAT compliance inspection. To improve oversight of mission
reporting, NGB will use the monthly OR SITREP to capture the WMD-CST
mission log data . This should eliminate NGB making a determination of mission
type and not providing the unit feedback , will help determine if any mission
reports are missing , and also identify discrepancies between the types of
missions reported and what NGB has recorded .
Summation : During the DoD IG review process, it appears that NGB did not
clearly present the WMD-CST deployme nt validation and reporting processes.
Specifically , the WMD-CSTs are under the control of the governor and the State
develops a validation process for WMD-CSTs. When deployed , WMD-CSTs
submit mission reports thru the State JOC and in turn , the State JOC should
immediately submit these mission reports to NGB NGCC fro accurate situational
awareness. Although mission numbers vary, as is noted. NGB can only record
what is received from the WMD-CSTs and States. Per NGR 500-3/ANGI10­
2503, "States must ensure clear reporting procedures are in place for timely,
accurate report ing ofWMD-CST movements and operations to the NGB JoCC.
The request for initial deployment of the WMD-CST will be reported to the NGB
JoCC using NGB form 500: NGB could not confirm that the DoD IG team , that
after visiti ng units they had conducted a reconcile of mission reports and
numbers at the JFHQ-State . Nor could NGB that the DoD IG had valida ted that
States had an established procedure to submit all WMD-CST reports to NGB, or,
if the reports had been submitted to whom these reports were sent.




Recommended improvements:
 NGB J3 agrees that there is room to improve oversight forWMD-CSTs'
Reporting process. Specifically, NGB J3 wi ll take the necessary steps to:
   Clarify reporting requirements and mission categorization as noted in NGR
   500-3/ANGI 10-2503, the NGB-J39 WMD-CST Branch Chief will draft an AII­
   States memorandum clarifying the WMD·CST reporting requirements for
   each mission type . This memorandum will be delivered to each JFHQ-State
   Verify compliance ofWMD-CST with reporting requirements lAW NGR 500-3
   IANG110-2503 and revise if required .




                                                 34
Conduct periodic reviews of mission reports to ensure that units are following
published guidance for and provide required reports for missions (i.e .
SITREPs, Termination packet and AAR.)
Establish a new category for Operations and Report ing as part of the WMD­
CST SEAT program . Develop an Operations checklist and incorporate as an
assessment category of SEAT visits in FY13 .
Establish an improved feedback process internal to NGB and external with
the States to ensure accuracy of data received and recorded . NGB-J39 will
gather mission log information as part of the WMD-CST monthly ORSITREP
submission. These reports will then be consolidated and used to va lidate
missions reported conducted during the month . This will ensure that WMD­
CST numbers and mission types are accurate and accounted for.




                                            35
